 

COMMONWEALTH of VIRGINIA

Office of the Attorney General

Mark R. Herring 202 North Ninth Street
Attorney General Richmond, Virginia 23219

  

FAX 804-371
theytens@oag.state.va.us

February 25, 2020

The Honorable Scott S. Harris, Clerk
Supreme Court of the United States
Office of the Clerk

One First Street, N.E.

Washington, D.C. 20543

Re: Johnson v. Kiser, No. 19-871
Dear Mr. Harris:

On January 13, 2020, the petition for a writ of certiorari in the above-
referenced case was filed. On February 24, 2020, the Court requested that a
response be filed by March 25, 2020.

On account of our current workload, we respectfully request a thirty-day
extension of time, until April 23, 2020, to file the response brief.

We thank the Court for its consideration.
Very truly yours,
oe |
Toby J. Heytens

Solicitor General of Virginia
Counsel of Record for Respondent

ce: Elliott Schulder, Esquire
Counsel for Petitioner
